              DEPARTMENT       OF HEALTH & HUMAN SERVICES                                   Office of Inspector General



                                                                                            Memorandum 

Date
             MAYI4 1999
           JuneGibbsBrown 

           Inspector Gener 


Subject    Medicare CoverP of GlucoseMonitoring Performedin Nursing Homes 

           (OEI-05-99-00380) 

To         Nancy-Ann Min’DeParle 

           Administrator 

           Health CareFinancing Administration 



       ’   The purpose of this memorandumis to recommendthat the Health Care Financing 

           Administration (HCFA) institute a national policy stipulating that daily routine glucosetesting 

           servicesprovided by nursing homesareroutine careservicescoveredunder the per diem rate 

           and not billable separatelyto the Medicare program. 


           Historically, residential nursing facilities havenot attemptedto submit claims to Medicare for 

           reimbursementfor blood glucosetestsperformed by their staff Beginning in 1998, some 

           nursing homesbegansubmitting claimsfor glucosereimbursementto Medicare fiscal 

           intermediaries. Nursing homesare being advisedby a consultantthat they are ableto bill 

           Medicare for glucose servicesprovided to patientsfrom asfar back as 1992. The.HCFA has 

           1eRthe decision asto whether to cover theseteststo individual intermediaries. 


           During the typical glucosetest in a nursinghome,.thepatient’s finger is pricked with a lancet 

           and a drop of blood collected on a reagenttest strip. The test strip is then inserted into a blood 

           glucosemonitor approvedby the Food andDrug Administration,(FDA) for home use. The
           monitors measureglucose (sugar) concentrationsby readingthe color changesproduced by the
           speciallytreated reagentstrips.

           Millions of Americans perform this test eachday in their own homes. Some patients check
           their blood glucoselevel before or after eachmeal. The FDA-approved glucose monitoring
           devices,lancetsand reagentstrips can be purchasedover the counter at most pharmaciesand
           other outlets. Medicare paysfor the monitor andtesting suppliesasdurable medical
           equipmentand suppliesfor diabetic beneficiarieswho self-test,but Medicare doesnot pay for
           the glucoseresults produced by suchequipmentunlessthe test is:

                  t       Medically necessary,            ’

                  b       Ordered by a physicianandusedin the diagnosisand treatment of a patient, 

                          and,
                  b       Performed at a laboratory site having either a certificate of waiver or certificate
                          of registration asrequired by the Clinical Laboratory Improvement Act.
   Page2 - Nancy-Ann Min DeParle

   Many nursing homeshold a certificate of waiver. This certificate allows a nursing home to
   perform “waived tests” using equipment certified by FDA for home use. Waived tests are
   simple to perform and havean insignificant risk of error. They also poseno reasonableharm
   to the patient ifperformed incorrectly. Nearly all of the glucosetestsperformed by nursing
   home personnelarewaived tests.

. 	 Examination of Medicare payment data indicatesthat in 1996Medicare nursing homesbilled
     about $69,829 for glucosetesting: $36,010 for blood glucosetestsperhormedusing a reagent
     strip (HCFA Common ProcedureCode 82948) and $33,819for blood glucosetests
    performed by monitoring devices (HCFA Common ProcedureCode 82962). Random                 ’
    processingerrors or a single contractor’s coveragepolicy might accountfor all of the 1996
    payments. Bills from nursing homesfor thesesameglucosetestsin 1998 totaled $451,507. In
    contrast, a single Medicare intermediary receivedmore than 9,000 claims for nursing home
    glucosetesting in late 1998 and early 1999. This intermediaryhaschosennot to pay the
    claims. Ifpaid, theseclaims could cost Medicare between$3 and $4 million. However,
    anotherfiscal intermediary is processingandwill pay many of the 2,000 claims for glucose
    testing submitted by nursing homes. Paymentsrangefrom $100 to $300 per claim. According
    to HCFA staff, nursing homeshavesubmitted more than 75,000 claims for glucose
    reimbursement. Many of theseclaims seekretroactive *paymentfor
                                                            -         12 or more months of
    testing.                                        .


  Medicare policy doesnot speCificallyaddressglucosetesting performed by nursing homes.
  Historically, nursing homeshavenot billed Medicare for theseservices. Medicare, Medicaid
  and facilities assumedthat payment for glucosetestsperformedin acute carehospitals, SNFs
  and NHs was included in routine nursing care. Basedon a consultant’s advice, somenursing
  facilities havebegun billing Medicare for glucosetestsperCormedon their patients. What
  beganasa trickle of claims is rapidly becominga streamthat could adverselyafhect
  intermediary systemsand resourcesand potentially cost Medicaremillions of dollars annually.

  We believethat Medicare should not pay separatelyfor glucosetesting performed by nursing
  homeson a daily basis. Resultsfrom thesetestsareusually not reported to a physician for
  diagnostic or therapeutic intervention. The tests areperformedby facility staff because
  patientsresiding in nursing homesmay not be ableto perform the test themselves.

  A national policy prohibiting separatebilling would be consistentwith Medicare and Medicaid
  efforts to preventunbundling of servicesandto establishprospective,payment rates.
  Permitting nursing homesto bill for blood glucosetestsinvites abuseand risks substantial
  program losses.

  We hope you will considerthis policy recommendation. Pleasedo not hesitateto call me or
  George Grob, Deputy Inspector Generalfor Evaluation andInspections,or haveyour staff call
  Mary Beth Clarke at (202) 619-2481 if you would like to discussthis issuefurther.
